CREDIT CARD AGREEMENT
(Wealth Management World EliteTM Mastercard® Credit Card)

The terms of the Bank of the West Wealth Management
World Elite Mastercard Credit Card are available to the
Bank’s Wealth Management clients.
By requesting or accepting any Wealth Management World
Elite Mastercard Credit Card account (individually or
collectively called “Credit Card account” or “Account”) with
Bank of the West, you agree to be bound by all the terms of
this Agreement. In this Agreement, the words “you” or “your”
mean everyone who has requested or accepted a Credit
Card account with us. The words “we,” “us,” “our,” or “Bank”
mean Bank of the West. If you do not accept this
Agreement, you must notify us in writing within 5 days after
receipt. Use of your card or any feature (including a balance
transfer) of your Credit Card Agreement shall constitute
acceptance of this Agreement.
1. Use. Your Wealth Management World Elite Mastercard
Credit Card (individually or collectively called “Card”) may be
used as a credit card for purchases of goods or services
from participating merchants (“Purchases”) or to get Cash
Advances from us or any other financial institution displaying
the “Mastercard” logo, or to purchase certain items such as
traveler's cheques, foreign currency, money orders, wire
transfers, lottery tickets, and (except as noted below) funds
to be used for wagers or gambling (all of which are
collectively referred to as “Cash Advances”) up to your
Credit Limit; provided, however, you may not use your Card
(i) to make Purchases or obtain Cash Advances for any
illegal transaction, or (ii) for any internet or online gambling
transactions. Transactions for online or internet gambling
will not be approved. If you use your Card for any illegal or
prohibited transaction, this Agreement also applies to such
transaction and you agree to pay any and all amounts
related to such transaction pursuant to the terms of this
Agreement. We may, in our sole discretion, restrict the use
of or terminate your Card if we notice excessive use of your
Card or other suspicious activities or if we reasonably
believe the Card is or has been used for one or more illegal
or prohibited transactions. You can also obtain a Cash
Advance by writing a special Mastercard check
(“Convenience Check”). The Cash Advance will be posted
to your Credit Card account when the Convenience Check
reaches us. If you stop payment on a Convenience Check,
your Credit Card account will be charged $16.00 (or as
permitted by law) for each stop payment. We may designate
that only a portion of your Credit Limit is available for Cash
Advances. In addition, you may request that we pay other
creditors on your behalf and transfer approved amounts to
your Account (“Balance Transfers”).
Your Card may also be used in certain automated
terminals to gain access to your Credit Card accounts. We
have no responsibility for the failure of any machine,
merchant, financial institution, or any other party to honor
your Card. Your Card and Credit Card account may be used
only for valid and lawful purposes. If you use or allow
someone else to use the Card or Credit Card account for
any other purpose, you will be responsible for such use and
may be required to reimburse us for all amounts or
expenses we pay as a result of such use.
2. Credit Limit. We will notify you of the Credit Limit for
each Credit Card account you have with us. You agree that
your total charges, including Purchases, Cash Advances,
Balance Transfers, INTEREST CHARGES, and fees that
may be due will not exceed your Credit Limit. If you do go
over your Credit Limit, you must repay the excess amount
immediately, and we may reduce the available Credit Limit
of any other Credit Card account you have with us until such
time the excess amount is repaid.
You may apply to
increase your Credit Limit at any time but we are not
obligated to increase your Credit Limit at any time.
Furthermore, we reserve the right to lower your Credit Limit
BW-WECCAG (Rev. 10/2020)

at any time. For security reasons, we may limit the number
or amount of transactions that may be accomplished with
your Card or Credit Card account, and we have the right to
limit authorizations to make transactions if we consider it
necessary to verify Payments received on your Credit Card
account. If we accept a payment from you in excess of your
outstanding balance, your available Credit Limit will not be
increased by the amount of the overpayment nor will we be
required to authorize transactions for an amount in excess
of your Credit Limit.
3. Temporary Reduction of Credit Limit.
Some
merchants (for example, car rental companies and hotels)
may request prior credit approval from us for an estimated
amount of your Purchases, even if you ultimately do not pay
by credit. If our approval is granted, your available Credit
Limit will temporarily be reduced by the amount authorized
by us. If you do not ultimately use your Credit Card account
to pay for your Purchases or if the actual amount of
Purchases posted to your Credit Card account varies from
the estimated amount approved by us, it is the responsibility
of the merchant, not us, to cancel the prior credit approval
based on the estimated amount. The failure of the merchant
to cancel a prior credit approval may result in a temporary
reduction of your available Credit Limit, but will not increase
the amount you owe us under this Agreement.
4. Agreement to Pay. When you use your Card or Credit
Card account, or when you permit anyone to use it, you
agree to pay the amount of any and all transactions
(including any which may have been made in violation of this
Agreement), and the INTEREST CHARGES and fees that
may become due as shown on the periodic statement. You
agree that we may change or cancel your Credit Card
account at any time without affecting your obligation to pay
the amounts that you owe under this Agreement.
5. Periodic Statement. Each month we will send you a
periodic statement for each Credit Card account you have
with us covering the previous billing period. We may not
send you a statement if your balance is less than $1 and
there were no transactions during the billing period. The
statement will have a “Statement Period Date”, “Statement
Closing Date” and a “Payment Due Date,” and will show,
among other things, your “Previous Balance,” your “New
Balance,” and your minimum monthly payment, which will be
shown as “Minimum Payment Due.”
6. Payment. You must make a payment by the “Payment
Due Date.” You have two choices: You may pay the entire
“New Balance” or you may pay in installments by paying at
least the “Minimum Payment Due.” When your payment is
properly received, we will allocate your payment in a manner
we determine except as otherwise required by law. The
Minimum Payment is applied first to fees, then to
INTEREST CHARGES and finally to principal. We apply the
Minimum Payment to balances with lower APRs, including
introductory APRs, before balances with higher APRs.
Payments made in excess of the Minimum Payment will be
applied first to balances with the highest ANNUAL
PERCENTAGE RATE (APR) and then to each successive
balance bearing the next highest ANNUAL PERCENTAGE
RATE.
Payments must be mailed to the BankCard Center
address specified in your periodic statement and reach the
BankCard Center during our regular business day by 5:00
p.m. Pacific Time for the payment to be credited the same
business day. Payments made in person at one of our
branches, or made by telephone, or made through our
website or another website controlled by a third party on our
behalf must be received by 5:00 p.m. Pacific Time to be
credited the same business day. Payments received after
the cutoff time of 5:00 p.m. Pacific Time are credited as of
the following business day. If you fail to properly make
payments, crediting of such payments may be delayed and
you may incur late charges and additional interest as a

result of the delay. Even when your payment is credited to
your Account, we may delay the availability of part or all of
your payment amount as credit for up to 15 days.
If a payment is returned to us for any reason, we may
apply a Returned Payment Fee of $27 for the first violation
and $38 for each subsequent violation within the next six
billing cycles. The Returned Payment Fee for Iowa residents
is $27 for the first violation and $30 for each subsequent
violation within the next six billing cycles. If the Returned
Payment Fee is greater than the Minimum Payment Due,
the fee will be equal to the Minimum Payment Due.
From time to time, we may let you skip or reduce one or
more monthly payments during a year and/or we may
temporarily reduce or eliminate certain INTEREST
CHARGES on all or a portion of your Credit Card account
balance or offer you other special terms. If we do, we will
advise you of the scope and duration of the applicable skip
or promotional feature. When the skip or promotional
feature ends, your regular rates and all the terms of the
Agreement will resume.
7. Minimum Payment - Late Payment Fee. At least the
amount of the “Minimum Payment Due” must be received by
us by the “Payment Due Date.” If it is not, we may apply a
Late Payment fee of $27 for the first violation and $38 for
each subsequent violation within the next six billing cycles.
The Late Payment fee for Iowa residents is $27 for the first
violation and $30 for the subsequent violation within the next
six billing cycles. If the Late Payment fee is greater than the
Minimum Payment Due, the fee will be equal to the
Minimum Payment Due. If such charge would result in an
INTEREST CHARGE greater than the maximum allowed by
law, we will only charge the maximum allowable rate. Your
Minimum Payment Due will be 3% of the New Balance plus
any Late Payment fee (with a minimum of the lesser of $27
or your New Balance) and any amount over your credit limit
and past due amount.
8. How to Avoid Paying Interest on Purchases. There
may be different treatment of INTEREST CHARGES for
Purchases, Balance Transfers, and Cash Advances, even
though they are computed the same way. You may avoid
paying an INTEREST CHARGE on Purchases if we receive
the entire New Balance by the Payment Due Date. If we do
not receive the entire New Balance by the Payment Due
Date, the INTEREST CHARGE will be charged on the
Purchases from the date of the transaction. INTEREST
CHARGES on all other balances, including Cash Advances
and Balance Transfers, begin on the transaction date and
will be assessed even if your entire New Balance is paid by
the Payment Due Date.
9. Computing Your INTEREST CHARGE. We figure the
INTEREST CHARGE on each Credit Card account by
applying the periodic rate to the “Average Daily Balance” of
each Balance Category on the Credit Card account,
including current transactions. Balance Categories include
Purchases,
Balance
Transfers,
Cash
Advances,
Introductory Rates and any special rate offers we may make
available from time to time. If you are charged interest, the
charge will be no less than $1.00 (the minimum interest
charge will appear as “Minimum Charge” in the fees section
of your statement).
a. Average Daily Balance. To obtain the daily balance
for each Balance Category we take the beginning balance
each day and add new transactions applicable to each
category, and subtract any payments, credits, and refunds
applied to the category. To figure your Average Daily
Balance for each Balance Category, we add all your daily
balances and divide by the number of days in the billing
period.
b. Figuring the INTEREST CHARGE. We compute the
INTEREST CHARGE for each Balance Category by
multiplying these Average Daily Balances by the applicable
Daily Periodic Rate, and then we multiply the result by the
number of days in the billing period. To determine the Daily
Periodic Rate for each Balance Category, we divide the
applicable ANNUAL PERCENTAGE RATE in effect for the
billing period by 365 (366 for leap year). The way we get the
ANNUAL PERCENTAGE RATE for each Balance Category
is described below under “Fixed Rate” and “Variable Rate.”

BW-WECCAG (Rev. 10/2020)

c. Fixed Rate. Introductory ANNUAL PERCENTAGE
RATES for Purchases, Balance Transfers or Cash
Advances may vary, if applicable. Please refer to your
Account Opening Disclosures for specific introductory period
and ANNUAL PERCENTAGE RATES associated with your
Account. After the Introductory Period ends, your regular
ANNUAL PERCENTAGE RATES for Purchases, Balances
Transfers or Cash Advances will apply.
d. Variable Rate. The current ANNUAL PERCENTAGE
RATE for all variable rates is shown on the Account
Opening Disclosure which has been provided to you with
this Agreement. The Daily Periodic Rate and the
corresponding ANNUAL PERCENTAGE RATE may change
each month on the first day of each of your billing cycles.
Each date on which the rate of interest could change is
called a “Change Date.” Changes will be based on changes
in the “Index.” The Index is the Prime Rate published in the
“Money Rates” table of The Wall Street Journal on the
business day immediately preceding the day your billing
cycle ends. If the Index is no longer available, we will
choose a new index which is based upon comparable
information and will give you notice of our choice. The
ANNUAL PERCENTAGE RATE may increase or decrease
each month if the Index changes. Any new rate will be
applied as of the first day of your billing cycle during which
the Index has changed. If the ANNUAL PERCENTAGE
RATE increases, you will pay a higher INTEREST
CHARGE, which may result in a higher minimum payment.
Your interest rate for Purchases (after the Introductory
Period) and Balance Transfers on your Wealth Management
World Elite Mastercard Account is based on a variable rate
equal to the sum of the Index plus a “Rate Spread” of 3.90
percentage points. The interest rate for Cash Advances on
your Account is based on a variable rate equal to the sum of
the Index plus a “Rate Spread” of 21.74 percentage points.
Immediately before each Change Date we will determine the
new interest rate by adding the Rate Spread to the Index.
The new interest rate will become effective at the start of
your first billing cycle after the Change Date. Only one
ANNUAL PERCENTAGE RATE and Daily Periodic Rate will
be in effect for each Balance Category during the billing
period. The ANNUAL PERCENTAGE RATE will not exceed
the maximum rate permitted by law. The effect of any
increase in the Annual Percentage Rate ANNUAL
PERCENTAGE RATE and the Daily Periodic Rate would be
to increase the amount of INTEREST CHARGE or interest
you must pay and thus increase your monthly payments.
10. Transaction Fees. You also agree to pay us the
appropriate fees listed below (as permitted by applicable
law) which may be amended from time to time by us. You
authorize us to charge your Credit Card account for the
following fees due to us. Balance Transfer fee: 4.00% of
each balance transferred, $10 minimum. Cash Advance fee:
4.00% of each Cash Advance, $10 minimum.
11. Foreign Transactions. Transactions that you make
in a foreign currency or that you make outside of the United
States of America even if it is made in U.S. dollars are
considered foreign transactions. If you make a transaction
in a foreign currency it will be billed to you in U.S. Dollars.
The conversion rate to U.S. Dollars will be determined by
Mastercard International in accordance with their operating
regulations or conversion procedures in effect at the time
the transaction is processed. Currently, their regulations and
procedures provide that the currency conversion rate they
use is either (1) a government-mandated rate or (2) a
wholesale market rate, whichever is applicable, in effect one
day prior to the processing date. We do not determine the
currency conversion rate which is used. You agree to pay
the converted amount in U.S. funds.
12. Annual Membership Fee. The Wealth Management
World Elite Mastercard Credit Card is subject to an Annual
Membership Fee of $295. The Annual Membership Fee will
be assessed in the first billing cycle after Account opening
and annually thereafter. A credit in the amount of the Annual
Membership Fee (the “AMF Credit”) for the first year will
appear on your first billing statement. No later than the first
business day of the last month of the quarter preceding the
annual anniversary of the Account’s opening date (Annual
Fee Determination Date), the Bank will determine whether

or not to apply the AMF Credit by evaluating your month-end
Eligible Qualified Balances for the prior 3 consecutive
months selected by the Bank. The AMF Credit will be
applied if you maintain month-end Eligible Qualified
Balances of $250,000 or more, as calculated by the Bank, in
any one of the prior 3 consecutive months used to evaluate
eligibility. If you do not qualify for the AMF Credit, within 90
days of the fee being charged, you can increase your
Eligible Qualified Balances or close your Account and
request to have the AMF Credit applied retroactively.
The term “Eligible Qualified Balances” used in this
Agreement means and shall include (i) deposits and
investments maintained with the Bank, including those
maintained with the Bank’s Investment Management or
Trust Services departments, and (ii) investment balances
with the Bank’s affiliate, BancWest Investment Services,
Inc. Eligible Qualified Balances may be owned by you
directly, or held in any trust controlled by you as settlor and
trustee. Deposits or investments held by business entities
that are wholly-owned and controlled by you may also be
included. Eligible Qualified Balances do not include any
account prohibited by law or which the inclusion of may
result in a breach of any fiduciary duty, law or regulation,
including the Employee Retirement Income Security Act of
1974 (“ERISA”).
13. Other Fees. As allowed by law, we may charge, and
you agree to pay, fees for certain services or requests made
by you, such as but not limited to: Automated Teller Machine
(“ATM”) transactions conducted at machines not operated
by us, requests for copies of billing statements, sales drafts,
or other records of your Account, or if you request a
replacement card(s). However, we will not charge fees for
copies of documents requested for a billing dispute. These
fees may change from time to time. We will inform you of
the fee(s) that you will incur prior to when the applicable
service(s) is(are) provided or when you make the request(s),
as applicable. You authorize us to charge your Credit Card
account for any such fees that you incur. We reserve the
right to waive a fee from time to time but a waiver does not
mean we will continue to waive such fee in the future.
14. Interest Charges for Covered Members of the
Armed Forces and Their Dependents: Federal law
provides important protections to members of the Armed
Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a
member of the Armed Forces and his or her dependent may
not exceed an annual percentage rate of 36%. This rate
must include, as applicable to the credit transaction or
account: the costs associated with credit insurance
premiums; fees for ancillary products sold in connection with
the credit transaction; any application fee charged (other
than certain application fees for specified credit transactions
or accounts); and any participation fee charged (other than
certain participation fees for a credit card account).
If you are a covered member of the armed forces or a
dependent, you will not be charged annual fees, transaction
fees, or penalty fees so that your cost may not exceed the
Military Lending Act annual percentage rate cap. Armed
Forces members and their dependents can hear about the
protections provided to them by calling 1-866-761-2689
(TTY users call 1-800-659-5495).
15. Default. We may declare the entire balance for all
Credit Card accounts due and payable at once with or
without notice or demand if any of these events (a “Default”)
happens:
a. If you miss a payment under this Agreement or any
other obligation you owe us; or
b. If you violate any terms of this Agreement.
If you are in Default, we may terminate your Credit Card
account, make no more additional loans, and require you to
immediately repay the entire unpaid balance of all amounts
due on your Credit Card account, including but not limited to
all loan amounts, late charges and other charges assessed
but not paid, and all of the INTEREST CHARGES accrued
but not paid. If we terminate your Credit Card account, your
obligation to repay the amounts you already owe us would
continue.
At our option, we may also take action short of terminating
your Credit Card account. If we take such lesser action
BW-WECCAG (Rev. 10/2020)

initially, we reserve the right to terminate your Credit Card
account and accelerate all amounts due under this
Agreement regardless of whether any additional events
have occurred which would permit termination and
acceleration.
16. Automated Terminal Services
a. Automated Terminals. You may use your Card in
the following automated terminals:
(1) Any Bank of the West automated teller machines.
(2) Any other automated teller machine that is
participating in a network and accepts our Card (“Network
ATM”) and
(3) Any point-of-sale terminal that accepts our Card
(“POS terminal”).
b. Services Available at an Automated Terminal
(1) You may use your Card at a Bank of the West or
any Network ATM to:
(a) Get a Cash Advance from your Credit Card
account.
(b) Get your Credit Card account balances. These
balances may not include some transactions recently made
in your Credit Card account. Some of the services described
in subparagraphs (a) and (b) may not be available at all
Network ATMs.
(c) You may use your Card at a POS terminal to
purchase certain merchandise. The amount of your
purchase will automatically be charged to your Credit Card
account as a Purchase.
c. Limits of Automated Terminal Services - Cash
Advances. You may get a Cash Advance from a Bank of
the West Automated Terminal up to an aggregate amount of
$1,000 each calendar day, provided that this amount does
not exceed your Credit Limit. This amount may be less for
Cash Advances from Network ATMs.
d. Card and Secret Code (PIN) Use. You are
responsible for all transactions in which you use your Card
in an automated terminal, or the use of the Card by anyone
else who uses it with your permission. Security in use of the
Card is provided by the secret code, which we will provide
you, and the magnetically encoded stripe on the Card. You
are responsible for keeping the Card safe and also for
protecting the secret code. Use the Card and the secret
code only as instructed at all times. Please notify us of any
mechanical or operating failure in connection with the use of
your Card. Do not permit anyone else to use your Card and
do not disclose your secret code or record it on the Card.
The Card remains the property of the Bank and can be
revoked and repossessed at any time. You must return it to
us when asked.
e. Fees for Using Automated Terminal Services.
Fees may be charged for transactions made at automated
teller machines not operated by us as described in
paragraph 13-Other Fees.
17. Lost or Stolen Card; Your Liability for
Unauthorized Use. Tell us AT ONCE if you believe your
Card has been lost or stolen. Telephoning is the best way of
keeping your possible losses down.
You may be liable for the unauthorized use of your Card
as a credit card. You will not be liable for unauthorized use
of your Card as a credit card which occurs after you notify
us at the telephone number or address stated in paragraph
18 orally or in writing, of loss, theft, or possible unauthorized
use. In any case, your liability for unauthorized use of your
Card as a credit card will not exceed $50.00.
18. Where to Call or Write. If you believe your Card has
been lost or stolen or that someone is using your Card or
Credit Card account without your permission, call: 1-866218-4959 (for TTY all 1-800-659-5495) or write to: Bank of
the West, BankCard Security Department, PO Box 2078,
Omaha, NE 68103-2078.
19. Our Business Days. Our business days are Monday
through Friday, except for bank holidays.
20. Credit Investigation and Disclosure. You authorize
us, both now and in the future, to check your credit and
employment history and to release information about our
credit experience with you in response to legitimate credit
inquiries. If you believe that we have incorrect information or
have reported inaccurate information about you to a credit

bureau, please call us at 1-866-218-4959 (for TTY call 1800-659-5495).
21. Security Interest. We have no security for any
amounts which become due under this Agreement, even
though any other agreement you may have with us, such as
a mortgage, may provide for such a security interest, unless
you have given us a specific security interest in connection
with this Agreement, which is described on the Supplement
attached to this Agreement.
22. Collection. You promise to pay all collection costs,
including, without limitation, mailgram charges, reasonable
lawyers’ fees and court costs, as permitted by law.
23. If There are More Than One of You. Each of you
individually, or all of you together, will be liable under this
Agreement. We may collect from or sue any one of you, or
make any settlements or extensions with any one of you,
without giving up our rights against the other. You
understand that any one of you can make Purchases, get
Cash Advances, or perform Balance Transfers under this
Agreement which will be binding upon all of you.
24. Compliance with Law/Sanctions. You agree to
comply with all applicable laws and regulations, including
those relating to anti-bribery, anti-money laundering, the
fight against terrorism, and sanctions (“Sanctions”), that
apply to the Bank or BNP Paribas S.A. You represent that
you are not the target of Sanctions. You agree to hold the
Bank harmless from liability for any actions taken by the
Bank to comply with applicable laws and regulations,
including Sanctions.
25. No Waiver of Rights. If we choose to waive any of
the terms or conditions of this Agreement on a case-by-case
basis, such as by not declaring the entire balance due when
the minimum monthly payment has not been made on time,
it does not mean that we have waived, or given up, our right
to exercise any of our rights or remedies under this
Agreement in the future. We are not required to use any
particular kind of demand or notice in order to collect
amounts due to us under this Agreement. No indulgence or
acceptance by us of delinquent or partial payments
constitute a waiver of our rights or of any provision of this
Agreement. No waiver of any existing default shall be
deemed to waive any subsequent default.
26. Changing Terms. We can change, add to, delete or
otherwise modify the terms of this Agreement at any time in
any way permitted by law. We will send you a notice of
change at least 45 days (or as required by applicable law)
before the effective date of the change. We do not have to
send you an advance notice of the change if it favors you,
such as by reducing rates, or increasing the maximum credit
limit. Except in cases where we are changing terms due to
the Minimum Payment Due not being received within 60
days of the Payment Due Date, you agree that the change
may cover all transactions made 15 days after we mail the
notice. If you do not agree to the change, a method for
rejecting the change and closing the Account will be
provided in the Change of Terms Notice. You agree that if
you use your card after the effective date of the change, this
will constitute your agreement with the change.
27. Canceling this Agreement. We have the right to
cancel this Agreement at any time by sending a notice to
any one of you in writing. You also have the same right to
cancel this Agreement at any time by sending us a notice in
writing or calling the BankCard Center at 1-866-218-4959
(for TTY call 1-800-659-5495). If this Agreement is canceled
by you or us, your obligation is to repay amounts you already
owe under this Agreement. In either case, the Account will
be closed and you will no longer have access to the
Account.
28. Governing Law. This Agreement will be governed by
the laws of the State of Nebraska, and, as applicable,
federal law, regardless of where the transactions are made.
29. Monitoring/Recording Telephone Calls. Our
supervisory personnel may listen to and record your
telephone calls to us for the purpose of monitoring and
improving the quality of service you receive.
30. Severability. All other provisions of this Agreement
shall remain in full force even if one or more provisions of
this Agreement are held invalid, illegal, void or

BW-WECCAG (Rev. 10/2020)

unenforceable by any rule or law, administrative order or
judicial decision.
31. Authorized User. If you elect to have an authorized
user, you will be liable for all transactions made by that user
on your Account. Any authorized user is not a contractually
liable party.
32. Our Communications with You. You agree that we,
any of our affiliates, agents, independent contractors or
service providers may monitor and record telephone calls
regarding your banking services to assure the quality of our
service or for other reasons. You expressly consent that we,
any of our affiliates, agents, independent contractors or
service providers may use written, electronic, or verbal
means, or any other medium, as permitted by law and
including, but not limited to, mail and facsimile, to contact
you. Your consent includes, but is not limited to, contact by
manual calling methods, prerecorded or artificial voice
messages, text messages, e-mails and/or automatic
telephone dialing systems. You agree that we, any of our
affiliates, agents, independent contractors or service
providers may contact you by using any e-mail or any
telephone number you provide, including a telephone
number for a cellular phone or other wireless device,
regardless of whether you incur any charges as a result.
33. RESOLUTION OF DISPUTES BY ARBITRATION.
PLEASE READ THIS ARBITRATION PROVISION
CAREFULLY. EXCEPT AS OTHERWISE PROVIDED, YOU
WAIVE YOUR RIGHTS TO TRY ANY CLAIM IN COURT
BEFORE A JUDGE OR JURY AND TO BRING OR
PARTICIPATE
IN
ANY
CLASS
OR
OTHER
REPRESENTATIVE ACTION.
a. Agreement to Arbitrate Disputes. Except as
otherwise provided, if you are unable to resolve a dispute
with us informally, you and we agree that the dispute will be
resolved through the binding arbitration process set forth in
this arbitration provision upon demand by either you or us.
b. Disputes Covered By Arbitration. Except as
otherwise provided, any dispute relating to or arising out of
your Account or this Agreement, including any aspect of any
agreement governed by this Agreement, or prior or later
versions of this Agreement, and any changes to the terms of
this Agreement will be subject to arbitration. Except as
expressly provided, all disputes are subject to arbitration no
matter the legal theory or remedy (damages, or injunctive or
declaratory relief) sought. Disputes include (1) any
unresolved claims concerning any services relating to your
Account, including, without limitation, Purchases, Balance
Transfers, Cash Advances, INTEREST CHARGES, your
use of any of our banking locations or facilities, or any
means you use to access your Account; (2) any claims that
arose before you and we entered into this Agreement (such
as disputes related to advertising) and after the termination
of this Agreement; (3) not only claims made directly by you,
but also made by anyone connected with you or claiming
through you, such as an authorized user, a beneficiary,
employee, representative, agent, predecessor or successor,
heir, assignee, or trustee in bankruptcy; (4) not only claims
that relate directly to us, but also our parent, affiliates,
successors, assignees, employees, and agents and claims
for which we may be directly or indirectly liable, even if we
are not properly named at the time the claim is made; (5)
claims based on any theory of law, contract, statute,
regulation, tort (including fraud or any intentional tort), or any
other legal or equitable ground, and include claims made as
counterclaims,
cross-claims,
third
party
claims,
interpleaders or otherwise; (6) claims made as part of a
class action or other representative action, being expressly
understood and agreed that arbitration of such claims must
proceed on an individual (non-class, non-representative)
basis; and (7) claims relating to the enforceability or
interpretation of this arbitration provision. A party who
initiates a proceeding in court may elect arbitration with
respect to any dispute advanced in that proceeding by any
other party. This arbitration provision shall survive any
termination of this Agreement or your Account.
c. Disputes Not Covered By Arbitration. Disputes
filed by you or by us individually in a small claims court are
not subject to arbitration if the disputes remain in such court
and advance only as an individual claim for relief.

d. Opt Out. You have the right to opt out of arbitration
by sending a signed written notice stating your decision to
opt out of arbitration to BANK OF THE WEST at Loan
Servicing, P.O. Box 3631, Omaha, NE 68103 within 30 days
after the date you opened your Account (“Account Open
Date”).
e. Commencing an Arbitration. The party initiating
arbitration must choose one of the following arbitration
forums to administer arbitration under the forum’s rules
(except as modified by this Agreement): (i) the American
Arbitration Association (“AAA”) under AAA’s Consumer
Arbitration Rules available at www.adr.org or 1-800-7787879; (ii) JAMS under JAMS’ Comprehensive Arbitration
Rules & Procedures or Streamlined Arbitration Rules &
Procedures, including JAMS’ Consumer Minimum
Standards (but not JAMS’ Class Action Procedures),
available at www.jamsadr.com or 1-800-352-5267.
f. Arbitration Procedure. Arbitration shall be decided
by a single neutral arbitrator selected in accordance with
AAA’s or JAMS’ rules, as applicable. The arbitrator will
decide the dispute in accordance with the terms of our
agreements and applicable substantive law, including the
Federal Arbitration Act and applicable statutes of limitation.
The arbitrator shall honor claims of privilege recognized at
law. Except as otherwise provided, the arbitrator may award
damages or other relief (including injunctive relief) available
to the individual claimant under applicable law. The
arbitrator will not have the authority to award relief to, or
against, any person or entity who is not a party to the
arbitration. An award in arbitration shall determine the rights
and obligations between the named parties only, and only
with respect to the dispute in arbitration and shall not have
any bearing on the rights and obligations of any other
persons, or on the resolution of any other dispute. The
arbitrator will take reasonable steps to protect your Account
information and other proprietary or confidential information.
Any arbitration hearing shall take place in the same city as
the U.S. District Court closest to your home address, unless
the parties agree in writing to a different location or the
arbitrator so orders. If you seek a total recovery of $10,000
or less, you may choose whether the arbitration will be
conducted solely on the basis of documents submitted to
the arbitrator, through a telephonic hearing, or by an inperson hearing in accordance with AAA’s or JAMS’ rules. At
your or our request, the arbitrator will issue a reasoned
written decision sufficient to explain the essential findings
and conclusions on which the award is based. The
arbitrator’s award shall be final and binding, subject to
judicial review only to the extent allowed under the Federal
Arbitration Act. You or we may seek to have the award
vacated or confirmed and entered as a judgment in any
court with jurisdiction.
g. No Class Action or Joinder of Parties. You and we
agree that no class action, private attorney general or other
representative claims may be pursued in arbitration and no
such action may be pursued in court if either you or we elect
arbitration. Unless mutually agreed to by you and us, claims
of two or more persons may not be joined, consolidated, or

otherwise brought together in the same arbitration (unless
those persons are joint account holders or beneficiaries on
your Account or related accounts, or parties to a single
transaction or related transaction).
h. Public Injunctive Relief Waiver. If either you or we
elect to arbitrate a dispute, neither you nor we will have the
right to seek a public injunction in arbitration or in court, if
such a waiver is permitted by the FAA. If any waiver of
public injunctive relief in this arbitration provision (as set
forth in any part of this arbitration provision) is found to be
invalid or unenforceable, and that decision is not reversed
on appeal, any claim for a public injunction will be decided
in court after all other disputes to be decided in arbitration
under this arbitration provision are arbitrated and the
arbitration award regarding individual relief has been
entered in court. In no event will a claim for public
injunctive relief be arbitrated. As set forth in “Severability”
below, the invalidity or unenforceability of this paragraph
will not affect the validity or enforceability of the remainder
of this arbitration provision.
i. Arbitration Costs. We will pay the filing,
administrative and/or arbitrator’s fees or compensation
(“Arbitration Fees”) that we are required to pay pursuant to
the arbitration forums’ rules or the law. In addition, with
respect to Arbitration Fees that you are required to pay
under the arbitration forum’s rules in connection with an
individual arbitration you have commenced against us, if you
would like us to consider paying them because you are
unable to do so, you must first request a waiver or reduction
of the Arbitration Fees from the arbitration forum. If the
request is denied or you remain unable to pay the reduced
Arbitration Fees, we will consider paying them if we receive
a written request by you sent to Bank of the West Legal
Department, 180 Montgomery Street, San Francisco,
California 94104.
j. Applicable Law. You and we are participating in
transactions that involve interstate commerce and this
arbitration provision and any resulting arbitration are
governed by the Federal Arbitration Act. To the extent state
law applies, the laws of the state governing your Account
relationship apply. No state statute pertaining to arbitration
shall apply.
k. Severability. Except as provided in ”Public Injunctive
Relief Waiver,” if any part of this arbitration provision
regarding joinder, consolidation, class actions, class
arbitrations, general public or private attorney general
actions is found to be illegal or unenforceable, that invalid
part shall not be severable and this entire agreement to
arbitrate disputes shall be unenforceable. If any other part of
this arbitration provision, including “Public Injunctive Relief
Waiver,” is deemed to be invalid or unenforceable, that
invalid part will be severed from the remainder of this
arbitration provision and the remainder of this arbitration
provision will be enforced.

YOUR BILLING RIGHTS
Keep This Notice for Future Use
This notice contains important information about your rights and our responsibilities
under the Fair Credit Billing Act
.
What To Do If You Find a Mistake on Your Statement
• Description of problem: If you think there is an error
If you think there is an error on your statement, write to us
on your bill, describe what you believe is wrong and
at:
why you believe it is a mistake.
Bank of the West
You must contact us:
BankCard Customer Service Department
• Within 60 days after the error appeared on your
PO Box 2319
statement.
Omaha, NE 68172-9793
• At least 3 business days before an automated
In your letter, give us the following information:
payment is scheduled, if you want to stop payment
• Account information: Your name and Credit Card
on the amount you think is wrong.
account number.
You must notify us of any potential errors in writing. You
• Dollar amount: The dollar amount of the suspected
may call us, but if you do we are not required to investigate
error.
any potential errors and you may have to pay the amount in
question.
BW-WECCAG (Rev. 10/2020)

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill
is correct. While we investigate whether or not there
has been an error:
• We cannot try to collect the amount in question, or
report you as delinquent on that amount.
• The charge in question may remain on your
statement, and we may continue to charge you
interest on that amount.
• While you do not have to pay the amount in
question, you are responsible for the remainder of
your balance.
• We can apply any unpaid amount against your
credit limit.
After we finish our investigation, one of two things will
happen:
• If we made a mistake: You will not have to pay the
amount in question or any interest or other fees
related to that amount.
• If we do not believe there was a mistake: You will
have to pay the amount in question, along with
applicable interest and fees. We will send you a
statement of the amount you owe and the date
payment is due. We may then report you as
delinquent if you do not pay the amount we think
you owe.
If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that you
still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those
organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill
is correct.
Your Rights If You Are Dissatisfied With Your Credit
Card Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card and you have tried in
good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or
services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your Credit Card account do
not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing at:

Bank of the West
BankCard Customer Service Department
PO Box 2319
Omaha, NE 68172-9793
While we investigate, the same rules apply to the disputed
amount as discussed above.
After we finish our
investigation, we will tell you our decision. At that point, if

BW-WECCAG (Rev. 10/2020)

we think you owe an amount and you do not pay, we may
report you as delinquent.
NOTICE FOR WISCONSIN RESIDENTS: Any holder of this
Credit Card Agreement is subject to all claims and defenses
which the debtor could assert against the seller of goods or
services obtained pursuant hereto or with the proceeds
hereof. Recovery hereunder by the debtor shall not exceed
amounts paid by the debtor hereunder.

